<html>
<title> - CASTRO'S CUBA: WHAT IS THE PROPER U.S. RESPONSE TO ONGOING HUMAN RIGHTS VIOLATIONS IN OUR HEMISPHERE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
CASTRO'S CUBA: WHAT IS THE PROPER U.S. RESPONSE TO ONGOING HUMAN RIGHTS 
                     VIOLATIONS IN OUR HEMISPHERE?

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON HUMAN RIGHTS AND WELLNESS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-120

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

92-565              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

               Subcommittee on Human Rights and Wellness

                     DAN BURTON, Indiana, Chairman
CHRIS CANNON, Utah                   DIANE E. WATSON, California
CHRISTOPHER SHAYS, Connecticut       BERNARD SANDERS, Vermont 
ILEANA ROS-LEHTINEN, Florida             (Independent)
                                     ELIJAH E. CUMMINGS, Maryland

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                      Mark Walker, Staff Director
                Mindi Walker, Professional Staff Member
                        Danielle Perraut, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 16, 2003.................................     1
Statement of:
    Calzon, Frank, executive director, Center for a Free Cuba; 
      Eric Olson, advocacy director for the Americas, Amnesty 
      International; and Tom Malinowski, Washington Advocacy 
      Director, Human Rights Watch...............................    80
    Noriega, Roger, Assistant Secretary for the Western 
      Hemisphere, State Department; Adolfo Franco, Assistant 
      Administrator, Latin America and the Caribbean, USAID; and 
      R. Richard Newcomb, Director, Office of Foreign Assets 
      Control, U.S. Department of Treasury.......................    19
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................     5
    Calzon, Frank, executive director, Center for a Free Cuba, 
      prepared statement of......................................    99
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   111
    Franco, Adolfo, Assistant Administrator, Latin America and 
      the Caribbean, USAID, prepared statement of................    47
    Malinowski, Tom, Washington Advocacy Director, Human Rights 
      Watch, prepared statement of...............................    83
    Newcomb, R. Richard, Director, Office of Foreign Assets 
      Control, U.S. Department of Treasury, prepared statement of    53
    Noriega, Roger, Assistant Secretary for the Western 
      Hemisphere, State Department, prepared statement of........    23
    Olson, Eric, advocacy director for the Americas, Amnesty 
      International, prepared statement of.......................    90
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, letter dated January 23, 2003........    13


CASTRO'S CUBA: WHAT IS THE PROPER U.S. RESPONSE TO ONGOING HUMAN RIGHTS 
                     VIOLATIONS IN OUR HEMISPHERE?

                              ----------                              


                       THURSDAY, OCTOBER 16, 2003

                  House of Representatives,
         Subcommittee on Human Rights and Wellness,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2157, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Present: Representatives Burton, Watson and Ros-Lehtinen.
    Staff present: Mark Walker, staff director; Mindi Walker, 
Brian Fauls, and John Rowe, professional staff member; Nick 
Mutton, press secretary; Danielle Perraut, clerk; Richard 
Butcher, minority professional staff member; and Cecelia 
Morton, minority office manager.

       PLEASE PROVIDE TITLES FOR THE ABOVE MENTIONED PEOPLE!!!!!!

    Mr. Burton. The Subcommittee on Human Rights and Wellness 
will come to order.
    I ask unanimous consent that all Members' and witnesses' 
opening statements be included in the record and without 
objection, so ordered.
    I ask unanimous consent that all articles, exhibits, 
extraneous and tabular materials referred to be included in the 
record. Without objection, so ordered.
    In the event of other Members attending the hearing, I ask 
unanimous consent that they be permitted to serve as a member 
of the subcommittee for today's hearing. Without objection, so 
ordered.
    The subcommittee is convening today to examine the 
atrocious human rights violations Cubans continue to suffer at 
the hands of their government and to discuss what the proper 
U.S. response should be as a result of these blatant abuses to 
help usher in a free and democratic Cuba.
    Liberty and freedom-loving Cubans have been engaged in a 
long fight for their island. The quest for democracy began 
there over a century ago and unfortunately has yet to come to 
fruition. For the last 44 years, there has been one person 
standing in the way of freedom for Cuban people and that is the 
Communist dictator, Fidel Castro.
    Since Castro assumed control in Cuba in January 1959, human 
rights and living conditions there have deteriorated 
tremendously. Most Cuban people live every day in fear of their 
government, thousands of which risk their lives every year to 
flee the communist regime by any means necessary, even 
attempting to brave the hazardous 90 mile crossing between the 
United States and Cuba on little makeshift rafts.
    I have always been critical of the human rights conditions 
in Cuba. Seeing a need for the United States to do more to 
promote democracy in Cuba, I along with my colleagues, Ileana 
Ros-Lehtinen, Lincoln Diaz-Balart, Bob Menendez and others, 
introduced the Cuban Liberty and Democratic Solidarity Act, 
Libertad, more commonly known as the Helms-Burton Amendment in 
February 1995 to seek international sanctions against the 
Castro government in response to the horrific human rights 
conditions at the hands of the Castro regime as well as to 
prepare for a democratic Cuban nation.
    A year later on February 24, 1996, Cuban Air Force fighter 
planes pursued three Cessna aircraft operated by Brothers to 
the Rescue volunteer pilots who surveyed the seas in search and 
rescue missions to assist Cuban dissidents. Deep into 
international air space, they were fired upon by the Russian 
Migs and two of the Brothers to the Rescue planes were shot 
down, murdering all passengers on board.
    In response to the Brothers to the Rescue murders, the U.S. 
Government recognized the need for stronger public policy 
initiatives to send a message to Fidel Castro that his 
government's actions against the Cuban people and the Brothers 
to the Rescue pilots would not be tolerated. Not long after 
this deplorable act, the legislation I talked about, the 
Libertad bill, won overwhelming support in both the House and 
the Senate and was signed into law by the President on March 
12, 1996.
    Since the Libertad Act became law, the Castro government 
has continued to commit numerous crimes against its people. In 
March of this year, the Cuban police executed a crackdown of 
over 75 dissidents who were opposed to the regime sentencing 
the peaceful oppositionists and journalists to jail for terms 
ranging from 6 to 28 years for their supposed crimes. If you 
have any doubts about what it is like, I wish everyone would 
read that book ``Against All Hope'' by Armando Voladeres which 
shows what kind of hell it is to be in a Castro Cuban prison. 
In prison, these dissidents have been savagely beaten and 
nearly starved to death for merely vocalizing criticisms of 
Castro and the Cuban Government.
    Seeking to address the current situation in Cuba, last week 
President Bush announced that his administration will be 
undertaking further initiatives to promote democracy in Cuba. 
In his remarks, he stated that the United States is going to 
strengthen the enforcement of travel restrictions to Cuba and 
increase the inspection of travelers and Cuban goods entering 
the country which he hopes will stunt the growth of the elicit 
sex trade, a modern form of slavery that the Castro government 
has been encouraging. The President also announced the creation 
of the Commission for Assistance to a Free Cuba to plan for 
Cuba's transition from Stalinist-like dictatorial rule of 
Castro to a free and open society.
    The United States is not the only country taking a firm 
stance against the Castro regime. The European Union, a group 
of 15 democratic countries in Europe dedicated to promoting 
peace and freedom in the world has recently been reassessing 
their political, cultural and business ties with Cuba in light 
of the recent dissident crackdown. The EU is currently 
rethinking the funding they have been supplying to Castro's 
government for economic and social programs which has helped to 
prop up the obviously moribund Castro regime. The money that 
goes down there doesn't get to the people; it gets to Fidel 
Castro and he uses it as he pleases to prop up his government.
    Facing such scrutiny from concerned nations around the 
world, the Cuban Government recently barred a special envoy 
from the United Nations Human Rights Commission from visiting 
the island to probe human rights conditions and they continue 
to deny international committees of the Red Cross to examine 
the conditions in Cuban prisons. These aren't the actions of a 
country that has nothing to hide. Not only has the Castro 
regime stifled efforts to promote freedom and democracy in Cuba 
but they have also actively been involved in the promotion of 
communism and dictatorships around the world. Cuba has actively 
encouraged other nations to fall under the dictatorial rule of 
communism.
    In an August policy report, the Hudson Institute stated, 
``The Cuban Government has been providing assistance to the 
fledgling Chavez regime in Venezuela to try to turn the current 
democratic rule in the South American country into a communist 
regime.'' It has also been concluded recently that Cuba has 
been jamming U.S. commercial and governmental satellite 
transmissions directed at Iran in an effort to prevent any 
notion of democracy in the area.
    At this time, both Cuba and Iran are pressuring the United 
Nations to adopt Internet standards so that their governments 
can dramatically sensor any information sent to their countries 
to further shield their people from the freedom of the rest of 
the world.
    To gain a greater perspective on the U.S.' policy 
initiatives on Cuba, we are going to hear from the Honorable 
Roger Noriega, a good friend of ours who is also a former very 
important staff member of the Foreign Affairs Committee. He is 
now the Assistant Secretary of State for Western Hemisphere 
Affairs. He will be discussing ways in which President Bush's 
administration plans to strengthen the current sanctions placed 
on Cuba. In addition, he will speak on how the U.S. Government 
will assist in the creation of a democratic Cuba and we hope 
that comes very soon.
    In addition, a representative of the U.S. Treasury 
Department's Office of Foreign Affairs, Assets Control is here 
to explain the current economic sanctions on Cuba and how the 
Treasury Department enforces those restrictions. We appreciate 
that.
    The subcommittee will also be receiving testimony from the 
Honorable Adolfo Franco, Assistant Administrator for Latin 
America and the Caribbean at the U.S. Agency for International 
Development. He will discuss how the United States has 
initiated programs that have promoted democracy in Cuba and the 
status of these initiatives.
    To outline the severity of human rights violations in 
present day Cuba, representatives of the human rights 
organization, Amnesty International, Human Rights Watch and the 
Center for a Free Cuba are here to discuss their involvement in 
bringing to light the abuses that the Cuban people continue to 
suffer at the hands of Castro.
    Under Fidel Castro's rule, Cuba has become a center of 
poverty and depression. The Cuban people have been exploited 
for the last 44 years and are continuously being kept in the 
dark by the people whose duty it is to protect them. Now it is 
time for the United States to take bolder actions against the 
Castro regime and to once and for all bring about a change that 
will give Cubans that for which they have been waiting for far 
too long, and that is freedom.
    I look forward to hearing more about the Bush 
administration's effort to help Cubans free themselves from the 
shackles of Castro and to finally take their rightful place as 
a bastion of liberty and democracy in our hemisphere.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.001
    
    [GRAPHIC] [TIFF OMITTED] T2565.002
    
    [GRAPHIC] [TIFF OMITTED] T2565.003
    
    [GRAPHIC] [TIFF OMITTED] T2565.004
    
    [GRAPHIC] [TIFF OMITTED] T2565.005
    
    Mr. Burton. With that, Ms. Watson, do you have an opening 
statement?
    Ms. Watson. Yes, I do.
    Mr. Burton. Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman.
    The Human Rights and Wellness hearing today sends an 
important message on U.S. foreign policy. This hearing will 
provide more information about human rights conditions in Cuba 
and the U.S. policy that results. Over the years, the overall 
objective of U.S. policy toward Cuba has been to help bring 
democracy and respect for human rights to the island. There 
have been two main schools of thought about how to achieve that 
objective. The first advocates a policy of keeping maximum 
pressure on the Cuban Government until reforms are enacted, 
while continuing efforts to support the Cuban people. The 
second argues for our constructive engagement which would lift 
some sanctions that are hurting the Cuban people and move 
toward engaging Cuba in dialog.
    Mr. Chairman, I feel that a complete choke hold on Cuba's 
economy is the wrong approach. The U.S. sanctions of today do 
not take into account changes in the world's power structure. 
Fidel Castro's government is not in line with, as we know, our 
U.S. doctrine but without the former Soviet Union as a partner, 
the communist threat has been severely diminished. We can be 
critical but not force our will upon other cultures. Continued 
economic sanctions perpetuates poor conditions for the general 
population of Cuba.
    I would also like to point out that there are some bright 
human rights developments in Cuba in a group called the Varela 
Project. The Varela Project is named for the 19th Century 
priest, Felix Varela, who advocated independence from Spain and 
the abolition of slavery. The project referendum would call for 
respect for human rights, amnesty for political prisoners, 
private enterprise and changes to the country's electorial law 
that would result in free and fair elections. Thousands of 
signatures have been collected to date.
    I am a proponent of constructive engagement but I have deep 
concern over some recent human rights abuses. In March 2003, as 
you have heard, the Cuban Government began a massive crackdown 
that resulted in the imprisonment of independent journalists, 
librarians, leaders of independent labor unions and opposition 
parties, and other democracy activists, including those 
supporting the Varela Project.
    Seventy-five activists were arrested, subjected to summary 
trials and prosecution and then received long prison terms. On 
April 11, 2003, the government executed three men who had 
hijacked a ferry in an attempt to reach the United States. The 
executions conducted after a swift and secret trial had been 
condemned around the world. On July 14, 2003, the Havana-based 
Cuban Commission for Human Rights, a national reconciliation, 
issued a report asserting that Cuba held 336 political 
prisoners, including the 75 arrested in the March 2003 
crackdown.
    Mr. Chairman, human rights issues and their resolutions are 
important to the relationship between the United States and 
Cuba. The angst between Fidel Castro's government and the 
United States has continued for far too many years. The Cuban 
Government must bring Cuban legislation in line with 
international human rights standards so that the human rights 
of all Cuban citizens are protected.
    Cuba is responsible for the treatment of its citizens but 
the United States has the responsibility to pursue a foreign 
policy that promotes human rights and avoids worsening the 
human conditions.
    I support the investigations of the Human Rights and 
Wellness Subcommittee in the pursuit of acceptable guidelines 
for our relationships between our different cultures. Today, I 
am looking forward to the testimony because I feel we can learn 
from you so that we can start on a course that will bring about 
the desired changes and compromises that each one of our 
cultures will have to make.
    Mr. Chairman, I look forward to the testimony and I yield 
the balance of my time.
    Mr. Burton. Thank you, Ms. Watson.
    Now, a real good buddy of mine and a fighter for freedom, a 
Cuban American of the first magnitude, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I am 
privileged to be a member of your subcommittee and I thank you 
for holding this very significant hearing today to discuss the 
ruthless human rights atrocities of the Castro regime and how 
our Nation should properly respond to them. Chairman Burton is 
no stranger when it comes to unmasking the violations of brutal 
dictators across the world and Dan is a true friend of the 
Cuban community in the United States.
    I look forward to hearing the testimony of my wonderful 
friends, our esteemed guests who have labored over the issue of 
how to deal with Castro atrocious actions and how our freedom-
loving Nation should respond to them. Your work in the field of 
human rights demonstrates the symbiotic relationship that the 
governments hold with the community. We thank you gentlemen for 
being here today. Ambassador Roger Noriega, the Honorable 
Adolfo Franco and Richard Newcomb, you are wonderful 
representatives of our Government. You serve the President 
well. You know the intricacies of the U.S.-Cuba policy and 
indeed the policies that we should have for the entire 
hemisphere and it is always a pleasure to hear from you and to 
know that you are always monitoring what actions we can take to 
help the people of Cuba.
    As all of us know, Mr. Chairman, brave men and women all 
across Cuba have endured appalling human rights abuses 
throughout Castro's repression. Even as we meet here today, 
courageous advocates suffer in jail for speaking their mind and 
for advocating merely for liberty and freedom, things that we 
take for granted. Brave Cubans such as, Oscar Elias Biscet, 
Marta Beatriz Roque, an independent economist and leading pro-
democracy advocate, are being sentenced to harsh prison terms 
of 20 years. Marta Beatriz Roque had previously spent nearly 3 
years in prison for publishing along with three other of her 
colleagues the paper calling for democratic reforms, that is 
all. Independent journalists like Fraon Rivero, dean of the 
Independent Dissident Journalists, was sentenced to 20 years. 
Fellow journalists including Ricardo Gonzales Alphonso, Hector 
Gutierrez also received 20 year sentences. Other victims of 
this wave of repression included Jose Daniel Ferrar, a member 
of the Christian Liberation Movement whose penalty was 
increased to death for a special request by the puppet whom the 
regime has as the presiding judge. There are also independent 
union labor leaders such as Oscaros Pinosa Chepe, Manuel 
Vasquez Portal, Nelson Moniet Despino and Nelson Alberto Ariel.
    Mr. Chairman, the list of names seems endless as the 
daunting reality of what the dictatorship has done sinks into 
our consciousness. Every day more and more opposition leaders 
are sentenced to languish in terrible jail cells and subjected 
to the most inhumane and degrading treatment. Their bodies are 
week, they are rapidly deteriorating but their courage, their 
spirit and their commitment to free Cuba from its enslavement 
is stronger than ever. The people of Cuba deserve a democracy, 
Mr. Chairman. They deserve freedom, they deserve that we help 
them accomplish that goal. We cannot and indeed must not remain 
silent. We cannot and must not be indifferent to the anguish 
and misery endured by the Cuban people just 90 miles off the 
shores of the hands of the depraved and cruel dictator and his 
agents of terror.
    The purpose of this hearing is to address the proper 
response that our Government should take to these ongoing human 
rights violations in our hemisphere, to address the suffering 
and the pain that occurs every day on the island of Cuba and to 
address the means and how to assure that the dictatorship of 
Castro understands that our Nation takes these abuses seriously 
and will not allow violations of human rights to go unpunished.
    Mr. Chairman, as you know, because it is your bill, and the 
provisions of the Libertad Act which you co-authored and co-
wrote, allows our Government to address the lingering pain of 
the Cuban people. Provisions that restrict the travel of Cuban 
officials to the United States or that withhold aid to 
governments that are providing assistance to or engaging in 
non-market-based trade with Cuba should be thoroughly enforced 
by our Government. We must ensure that all of the provisions of 
the Helms-Burton Act are enforced. These provisions were pushed 
by the leadership of my good friend, Chairman Burton, and it 
encourages a resilient Cuban people to believe in the 
possibility of a free Cuba. Indifference breeds evil. 
Indifference is the enemy of freedom. Indifference helps cloak 
the deplorable actions of tyrants. Let us not become 
indifferent to the plight of our fellow Cuban brothers and 
sisters and seriously take a look at what our Government can 
and should do to promote freedom in Cuba.
    As you said, Mr. Chairman, liberty and freedom-loving 
Cubans have been engaged in a long fight for their island. It 
is important to remember these brave souls and their just 
cause. I affirm to you that I will continue to work on behalf 
of not only Cubans who suffer at the hands of a cowardly 
dictator but of all people who are persecuted and prosecuted 
for their beliefs and faith and the wonders of liberty.
    I would like to submit for the record, two letters that I 
have discussed with the administration that provide 
recommendations for the vital issues we have discussed here 
today.
    Mr. Burton. Without objection.
    [The information referred to follow:]

    [GRAPHIC] [TIFF OMITTED] T2565.006
    
    [GRAPHIC] [TIFF OMITTED] T2565.007
    
    [GRAPHIC] [TIFF OMITTED] T2565.008
    
    [GRAPHIC] [TIFF OMITTED] T2565.009
    
    [GRAPHIC] [TIFF OMITTED] T2565.010
    
    [GRAPHIC] [TIFF OMITTED] T2565.011
    
    Ms. Ros-Lehtinen. I thank the chairman for this opportunity 
and look forward to hearing from our esteemed guests on an 
issue that is true to my heart. I want to thank David Mulcher 
who is also here and who does his job so well and helps so many 
folks in Cuba who are suffering. I want to recognize his good 
work as well.
    Thank you, Mr. Chairman.
    Mr. Burton. Very good.
    We have with us, as mentioned. the Honorable Roger Noriega, 
the Assistant Secretary for the Western Hemisphere from the 
State Department; the Honorable Adolfo Franco, the Assistant 
Administrator for Latin America and the Caribbean, USAID; and 
Mr. R. Richard Newcomb, Director, Office of Foreign Assets 
Control, U.S. Department of Treasury.
    I know this isn't necessary but this is a tradition, but 
would you rise so we can swear you?
    [Witnesses sworn.]
    Mr. Burton. Secretary Noriega, we will start with you.

   STATEMENTS OF ROGER NORIEGA, ASSISTANT SECRETARY FOR THE 
WESTERN HEMISPHERE, STATE DEPARTMENT; ADOLFO FRANCO, ASSISTANT 
 ADMINISTRATOR, LATIN AMERICA AND THE CARIBBEAN, USAID; AND R. 
 RICHARD NEWCOMB, DIRECTOR, OFFICE OF FOREIGN ASSETS CONTROL, 
                  U.S. DEPARTMENT OF TREASURY

    Mr. Noriega. Thank you very much, Mr. Chairman.
    I have a written statement that I would like to have 
submitted for the record of this hearing and I want to thank 
you very much for inviting us to discuss U.S. policy toward 
Cuba. I am delighted to have an opportunity to address this 
important topic. I am a little intimidated to be addressing a 
topic about which the members of this committee know so much. 
Nevertheless, we welcome the opportunity.
    The climate for Mr. Castro is changing dramatically. Just a 
few days ago, a trendy crowd in Paris, including actress 
Catherine Deneuve and director, Pedro Almodovar, was chanting, 
``Cuba, si. Castro, no.'' When the Bush administration and the 
French Communist Party both condemn Castro's repression, we 
know that Castro is in very deep trouble. How did we get here?
    First, President Bush is committed to a rapid, peaceful 
transition to democracy in Cuba. This administration has 
extended more material support and more moral support to the 
opposition than ever before. We have encouraged our European 
allies to step up their contact with dissidents. Just last 
Friday, the President announced several new initiatives which 
we will describe in some detail to encourage a free and 
democratic Cuba.
    The President has dashed Castro's hopes for an 
accommodation. The President has unambiguously pledged to veto 
any embargo busting bills. Castro's escape route, using U.S. 
tourist dollars or direct U.S. financing to prop up his police 
state, has been cutoff. Castro also understands that he dare 
not use the desperation of the Cuban people trying to free his 
tyranny in order to blackmail the United States. We have told 
the Cubans that any political manipulation of a mass migration 
of Cubans to the United States would be considered a hostile 
act. There is no escape route for Mr. Castro and there is no 
blackmail.
    There is a growing international consensus on the nature of 
the Castro regime and the crying need for change. The critical 
factor in the coalescence of this unprecedented multilateral 
consensus on Cuba was the March crack down on civil society. 
The regime is in the fight of its life and it is a fight it 
will lose. As former Eastern European Presidents Vaclav Havel, 
Arpad Goncz and Lech Walesa recently said, even in the wake of 
repression, ``the voices of free-thinking Cubans are growing 
louder. That is precisely what Castro and his government must 
be worried about.'' That repression provoked our European and 
some Latin American allies to denounce the regime in some of 
the most dramatic and compelling terms ever.
    As the committee is well aware, the right of U.S. nationals 
that own claims to confiscated property in Cuba, to bring suit 
under Title III of the Cuban Liberty Democratic Solidarity Act 
may be suspended for 6 month periods only if the President 
determines the suspension is necessary to the national 
interests of the United States and expedite a transition to 
democracy in Cuba.
    In justifying previous waivers, this administration has 
cited the growing international consensus to bring pressure for 
real change in Cuba. Much has been accomplished this year in 
this regard. The European Union and the European Union's 
Council of Foreign Ministers joined by most of the member 
governments individually condemned the arrests of the 75 Cuban 
dissidents and called for their release. The EU has increased 
its contacts with the Cuban dissidents despite the strong 
objections of the regime.
    There have been actions taken in our hemisphere including 
the May declaration by 17 OAS member states citing the arrest 
of 75 Cuban prisoners of conscience. Latin American nations led 
the effort to pass a resolution on Cuba at the U.N. Human 
Rights Commission and we would hope for strong, clear 
leadership on that same subject not only in the U.N. Human 
Rights Commission in Geneva, but in the context of the Ibero-
American Summit which we held this November in Bolivia.
    The effectiveness of the Helms-Burton Act, particularly 
Title III and Title IV is clear. Foreign investment in Cuba is 
tailing off, partially because Cuba is bad for business and 
partially because of the dissuasive impact that Helms-Burton 
has had on potential investors. As you know, Mr. Chairman, the 
Cuban regime controls the economy and is the only real employer 
on the island. From its carefully controlled investment and 
joint ventures, these have been very poor and risky 
investments. Of the 540 joint ventures formed since the 
endeavors were legalized more than 20 years ago, only 397 
remained by the end of 2002. The number of joint ventures 
formed each year has been steadily declining since 1996, the 
year the Helms-Burton Act was passed, an increase of a mere 25 
such ventures in the last 7 years since Helms-Burton was 
approved by Congress. The trend lines for new investment are 
dropping and we believe one reason why is the continued 
pressure on foreign firms not to traffic in confiscated 
property. It is clear that with Castro there can be no real 
reform in Cuba.
    President Bush's initiative for a new Cuba challenged the 
Cuban Government to undertake meaningful political and economic 
reforms and the regime has responded with more repression. 
Fidel Castro is not interested in change; however, we are. 
Toward that end, we are maintaining support for civil society, 
working to break the information blockade imposed by Castro, 
maintaining international momentum for real reform, keeping up 
the pressure on human rights and confronting trafficking by 
foreign corporations and properties confiscated by the regime 
from Americans.
    Our policy is to engage the 11 million other people in Cuba 
who want to be free, not the regime that denies them this 
essential right. Our policy is not to punish the Cuban people 
but to break the stranglehold of the Cuban dictatorship on the 
Cuban people.
    President Bush outlined some initiatives on October 10 as 
part of a process of increasing our support for sweeping change 
in Cuba. On October 10, the President spoke of his commitment 
to breaking the information blockade imposed by the regime. The 
President announced three important new initiatives to support 
our solidarity with the Cuban people and to help them achieve a 
democratic transition. Those initial steps include the 
formation of a Commission for Assistance to a Free Cuba, co-
chaired by Secretary Colin Powell and Mel Martinez, the 
Secretary of Housing and Urban Development and comprised of 
U.S. executive branch agency representatives to help prepare 
the U.S. Government to provide effective assistance to a free 
Cuba.
    The groundwork for this sort of process is laid by Title II 
of the Helms-Burton Act and the aim is to deal effectively and 
decisively in a transition period to ensure that the cronies of 
Fidel Castro cannot hold on to power and to ensure that there 
are no accommodations with cronies of the Castro regime that 
try to hold the apparatus of his dictatorship together even 
after he is gone. We need to be prepared to move effectively, 
decisively and to offer the Cuban people the opportunity for 
real reform.
    That, Mr. Chairman, is one of the key reasons for 
maintaining the U.S. embargo. The question today isn't imposing 
the embargo. The question today is how you go about lifting it 
as a unilateral concession to a dictator who is drawing his 
last breath or do you use it as leverage with a transitional 
government to make sure that the economic and political reforms 
are sweeping enough, deep enough that they sweep away all 
traces of Castro's regime.
    We also want to enforce our travel restrictions, enforce 
U.S. law. Better enforcement of travel restrictions will make 
it more certain that permitted travel for Americans is not 
abused. Enforcement agencies already are increasing inspections 
of travelers and shipments to and from Cuba and target those 
who are illegally traveling to Cuba via third countries and on 
private vessels.
    On the migration issue, the U.S. Government must improve 
the way it identifies and protects those who face persecution 
in Cuba and provide them with an opportunity to come to the 
United States safely. We need to resume full monitoring and we 
will resume full monitoring of all returned migrants and to 
hold a new lottery whether the regime approves it or not to 
replenish the data base of Cubans who wish to leave Cuba 
legally and safely.
    We are also stepping up freedom broadcasting, making sure 
that radio and TV Marti is professional and delivers an 
effective message that reaches the Cuban people and overcomes 
the jamming of the Castro regime.
    Mr. Chairman, in conclusion, this is a crucial time for the 
cause of a free Cuba. Some of our efforts including the 
pressure under Helms-Burton are bearing fruit. Also, our 
allies, especially in Europe, see the regime for what it is 
finally and are insisting on democratic change like never 
before. Even more encouraging is that Cubans of conscience with 
a commitment to democracy and reform are working day by day for 
change. The Bush administration will work with you to do 
everything we can to support these people.
    The best news is the crackdown did not crush the opposition 
but rather imbued the remaining activists with a new sense of 
urgency and purpose. Oswaldo Paya has reconstructed his network 
of civil society activists and in a real act of defiance 
recently delivered more than 13,000 additional signatures to 
the regime demanding the right to a vote on their own future. 
Oscar Elias Biscet, Marta Beatriz Roque and Raul Rivero are in 
jail for daring to think about the future in defiance of a 
dictatorship trapped in the past. Presidents Vaclav Havel, 
Arpad Goncz and Lech Walesa recently wrote, as I cited earlier, 
``The regime is getting nervous.'' It has reason to be nervous, 
confronted with a growing civil society, confronted with 
international condemnation and tough measures to ensure that 
foreigners do not do business with the Cuban regime by 
trafficking in property stolen from U.S. nationals.
    President Bush is committed to seeing the end of the Castro 
regime and just as importantly, dismantling the apparatus that 
keeps him in power. We are preparing for a day when Castro's 
regime and its repression are no more.
    Thank you very much, Mr. Chairman.
    [Note.--The information referred to may be found in 
subcommittee files.]
    [The prepared statement of Mr. Noriega follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.012
    
    [GRAPHIC] [TIFF OMITTED] T2565.013
    
    [GRAPHIC] [TIFF OMITTED] T2565.014
    
    [GRAPHIC] [TIFF OMITTED] T2565.015
    
    [GRAPHIC] [TIFF OMITTED] T2565.016
    
    [GRAPHIC] [TIFF OMITTED] T2565.017
    
    [GRAPHIC] [TIFF OMITTED] T2565.018
    
    [GRAPHIC] [TIFF OMITTED] T2565.019
    
    [GRAPHIC] [TIFF OMITTED] T2565.020
    
    [GRAPHIC] [TIFF OMITTED] T2565.021
    
    [GRAPHIC] [TIFF OMITTED] T2565.022
    
    [GRAPHIC] [TIFF OMITTED] T2565.023
    
    [GRAPHIC] [TIFF OMITTED] T2565.024
    
    [GRAPHIC] [TIFF OMITTED] T2565.025
    
    [GRAPHIC] [TIFF OMITTED] T2565.026
    
    [GRAPHIC] [TIFF OMITTED] T2565.027
    
    [GRAPHIC] [TIFF OMITTED] T2565.028
    
    [GRAPHIC] [TIFF OMITTED] T2565.029
    
    [GRAPHIC] [TIFF OMITTED] T2565.030
    
    [GRAPHIC] [TIFF OMITTED] T2565.031
    
    [GRAPHIC] [TIFF OMITTED] T2565.032
    
    Mr. Burton. Thank you, Mr. Secretary.
    Mr. Franco.
    Mr. Franco. Thank you for this opportunity to testify on 
behalf of the U.S. Agency for International Development 
concerning the continuing human rights violations of the Castro 
dictatorship in Cuba and the importance of a vigorous 
international response on behalf of the Cuban people.
    I would request that my full statement be included in the 
record.
    Before proceeding to my prepared remarks, as Assistant 
Secretary Noriega noted, this is a difficult committee before 
which to testify because you are all so well informed on the 
issue, but it is also a pleasure. I want to commend you, Mr. 
Chairman, for your leadership over the years in continuing to 
put the necessary pressure on the Castro regime. I think your 
statement was comprehensive, articulate and certainly reflects 
the views of the Bush administration.
    It has been a pleasure to work with Ms. Ros-Lehtinen who 
has been a stalwart leader on these issues. Your statement and 
your continuing support for Section 109 and the important work 
that USAID is doing to provide information on democracy and 
human rights in Cuba--which I will discuss--has been 
indispensable.
    Ms. Watson, you and I traveled with Chairman Hyde last year 
to Europe and I remember your commitment when we had 
discussions on human rights and I fully share your enthusiasm 
for the Veletta project and also as you said, the United States 
has a responsibility to promote human rights. I would like to 
discuss what we are doing to accomplish that goal which we 
share.
    In his testimony this afternoon, Assistant Secretary 
Noriega has well described the increasingly repressive measures 
taken by the Cuban State to stifle the growing civil society 
movement in that country. The summary executions of three young 
men, as Ms. Watson noted, who simply tried to escape 
repression. The imprisonment of more than 75 new political 
prisoners whose only crime was to peacefully pursue their basic 
human rights in my view illustrates the true nature of the 
tyrannical Castro regime.
    These acts of the Cuban Government are outrageous and 
indefensible but unfortunately, they are not new. Fidel Castro 
has systematically repressed the Cuban people for the past 44 
years as the chairman noted. What is new is the growing 
strength of Cuba's peaceful democratic opposition. 
Congresswoman Watson alluded to the Veletta Project as an 
example of that growing movement.
    Make no mistake about it, an independent civil society has 
begun to emerge in Cuba and it deserves the support of free 
people everywhere. Certainly we in the U.S. Government and the 
American people must do what we have always done and that is to 
hold high the banner of freedom and keep the flame of liberty 
alive. One of the things I recall that Soviet dissidents talked 
about is they always saw the West as that bright light and they 
never lost hope because as Congresswoman Ros-Lehtinen has 
noted, indifference does breed evil.
    Since passage of your bill, Mr. Chairman, the Helms-Burton 
Act of 1996, the U.S. Agency for International Development has 
been instrumental in working closely with the State Department 
and other U.S. non-governmental organizations to promote a 
rapid, peaceful transition to democracy in Cuba. We have done 
so by increasing the flow of accurate information on democracy, 
human rights and free enterprise to, from and within Cuba. I 
wish to note for the record this information is not U.S. 
Government information but information that is freely available 
in our country and in the West and includes work such as books 
by Martin Luther King.
    As authorized by Section 109 of the Helms-Burton law, USAID 
has provided $26 million over the past 6 years to U.S. non-
governmental organizations to do the following. First, build 
solidarity with Cuban human rights activists; second, give 
voice to Cuba's independent journalists; third, to defend the 
right of Cuban workers; fourth, to develop independent Cuban 
non-governmental organizations; and last, to provide direct 
outreach of information to the Cuban people.
    Despite the active opposition of the Cuban Government, 
USAID grantees have delivered more than 150,000 pounds of food 
and medicine to the families of political prisoners and other 
victims of repression in Cuba. USAID's grantees have also 
provided more than 10,000 short wave radios to the Cuban 
people. This enables them to listen to not only TV Marti and 
the Voice of America but to the BBC, Radio Netherlands and 
other uncensored international broadcasts.
    USAID grantees have also sent the Cuban people more than 2 
million books, newsletters, video cassettes and other 
informational materials concerning democracy, human rights, 
free enterprise, and literature, simple things such as 
literature. In addition, USAID grantees have published 
worldwide more than 9,000 reports coming from Cuba's own 
growing independent journalist movement.
    Most important, in my view, USAID grantees disseminate 
these reports in hard copies throughout Cuba so that the Cuban 
people from one end of the island to the other can learn the 
names of Cuban opposition leaders, debate their ideas and draw 
strength from their courage.
    Mr. Chairman, as you know, the Cuban people suffer the most 
basic deprivations of body as well as spirit because of the 
failed policies of the Castro regime. As an example, President 
Bush has repeatedly offered emergency food and humanitarian 
assistance to the Cuban people. Fidel Castro has always 
rejected that assistance. Castro not only denies the Cuban 
people the right to vote, the right to read and the right to 
speak, but he also denies the Cuban people the right to eat.
    Castro blames all of his government's failed economic 
policies on the U.S. embargo but it is not U.S. policy, Mr. 
Chairman, which is responsible for the dismal failure of Cuban 
agriculture and its inability to feed its own people. A country 
rich in agricultural potential with plentiful supplies of labor 
cannot supply its own population with meat and has imported 
most of its rice, beans and even fish for the past 40 years.
    The United Nations Food and Agricultural Organization, the 
FAO, estimates that 13 percent of the Cuban population is 
chronically undernourished. The World Food Program has found 
some serious deficiencies in dietary intake in eastern Cuba 
where the average diet provides less than 80 percent of the 
minimum level of proteins, less than 50 percent of the 
necessary fats and insufficient vitamin and mineral intake for 
sustained health.
    As President Bush said on October 10, ``Clearly the Castro 
regime will not change by its own choice but Cuba must 
change.'' In announcing new initiatives to hasten the arrival 
of a new, free, democratic Cuba, President Bush announced that 
he will establish a Commission for Assistance to a Free Cuba to 
plan for the happy day when Castro's regime is no more and 
democracy flourishes on the island. Assistant Secretary Noriega 
has outlined the purposes of the Commission.
    Mr. Chairman, I wish to take this opportunity to thank you 
for your continued support and that of the committee for 
USAID's efforts to promote rapid, peaceful transition in Cuba 
and I again wish to thank you for the opportunity to appear 
before the committee this afternoon.
    I welcome any questions you and the other distinguished 
members of the committee may have for me.
    [The prepared statement of Mr. Franco follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.033
    
    [GRAPHIC] [TIFF OMITTED] T2565.034
    
    [GRAPHIC] [TIFF OMITTED] T2565.035
    
    [GRAPHIC] [TIFF OMITTED] T2565.036
    
    Mr. Burton. Thank you very much, Mr. Franco.
    Mr. Newcomb.
    Mr. Newcomb. Thank you, Mr. Chairman and members of the 
committee. I am pleased to be here this afternoon.
    With your permission, I would like to enter my full 
statement in the record and briefly summarize my remarks.
    Today's hearing is especially timely. Last Friday, 
Assistant Secretary Noriega and I joined President Bush in the 
Rose Garden where he announced a number of new initiatives to 
assist the Cuban people in their struggle for democracy and to 
prepare for the happy day when Fidel Castro's tyrannical regime 
falls and the Cuban people can at last know freedom. In his 
speech, the President called for increased enforcement of 
travel restrictions to ensure that permitted travel to Cuba 
such as visits to relatives or humanitarian missions are not 
abused for illegal business trips or tourism.
    Mr. Chairman, while illegal travel to Cuba, especially 
tourist travel, may seem harmless, it is in fact an important 
source of revenue for the Castro regime. A dollar paid to a 
tourist hotel in Cuba goes mostly to the regime, leaving only 
pennies and worthless pesos for the workers. Tourist dollars 
provide vital hard currency that Castro and his cronies use to 
continue to oppress Cuba. President Bush said it best on 
Friday, ``Illegal tourism perpetuates the misery of the Cuban 
people.''
    The Office of Foreign Assets Control looks forward to 
working with the Departments of State and Homeland Security to 
answer the President's call to step up the enforcement of 
illegal travel to Cuba and to deny Fidel Castro the financial 
wherewithal to perpetuate the disparities visited on the Cuban 
people for more than four decades. As in the past, we will work 
closely with the Department of Homeland Security, Bureau of 
Customs and Border Protection at all ports but in particular, 
JFK, LAX and Miami where charter flights to Cuba operate under 
OFAC license. We will also coordinate closely with Homeland 
Security at other locations used by unlicensed travelers and 
remittance couriers to travel to and from Cuba via third 
countries. In addition, we will also enhance our investigation 
and enforcement efforts against individuals and companies that 
provide travel and remittance services to Cuba without a proper 
license.
    Already in response to the President's announcement, 
Customs and Border Protection inspectors have stepped up their 
efforts in examining nearly all the charter flights departing 
from Miami. OFAC personnel will work closely with Homeland 
Security to have similar levels of scrutiny at other ports of 
departure to Cuba, JFK, LAX and the other locations in the 
United States and abroad used as third country transit points 
by Americans for travel to Cuba.
    In one operation just this last weekend, inspectors seized 
approximately $10,000 in unlicensed currency from a charter 
flight passenger. I am also pleased to report that just this 
afternoon, we at Treasury hosted an interagency meeting with 
Homeland Security, State Department, Commerce and the U.S. 
Coast Guard officials to develop an effective enforcement 
strategy to ensure that this program is implemented fully and 
effectively on a nationwide basis. We will provide training, 
advice and assistance to inspectors at all affected U.S. ports. 
We have procedures in place with Homeland Security to receive 
currency seizure reports and to take appropriate penalty action 
against violators and work with our interagency partners to 
refine enforcement strategies and operations to achieve maximum 
results in coordination with the U.S. attorneys identifying 
promising cases for criminal prosecution of embargo violations.
    With regard to licensing, we eliminated altogether a 
category of travel related to non-accredited educational 
exchanges where licenses were largely being abused to pursue 
tourist activity. Following through on a commitment I made at a 
congressional hearing last year, we published in the Federal 
Register the comprehensive guidelines for license applications 
to engage in travel-related transactions involving Cuba on our 
Web site in April of this year, providing clearly articulated 
criteria for applying for licenses pursuant to each of 11 
categories of activities for which specific license may be 
granted. Examples offer include additional guidance to 
applicants in furtherance of our goal to promote transparency 
and understanding by the public of our administrative process. 
Criteria set forth in these guidelines seek to more strictly 
define licensing parameters and criteria and to ensure that 
existing policy is clear and properly carried out through our 
licensing process. In particular, these guidelines seek to 
eliminate the abusive practice of allowing unaffiliated persons 
to travel under a license issued to another party and ensure 
that there exists a sufficient nexus between the qualifications 
of persons traveling under the authority of a license and the 
full-time agenda of authorized activities they will engage in 
while in Cuba.
    We will continue to monitor activities of licensed 
travelers to ensure that conduct does not deviate from that 
which has been authorized. Licenses themselves may also be 
suspended and revoked with their parameters are not met or are 
otherwise violated.
    At OFAC, we are also involved in the process of carrying 
out a statutory mandate involving the initiation of hearings 
before administrative law judges on the imposition of civil 
penalties for engaging in unauthorized travel related 
transactions. I have forwarded just recently more than 50 
hearing requests to the Treasury General Counsel's Office for 
hearings before these ALJs. In short and in summary, we at OFAC 
are well positioned to implement fully and with alacrity the 
new enforcement policy announced last week by the President.
    Thank you, Mr. Chairman. I look forward to any questions 
you may have.
    [The prepared statement of Mr. Newcomb follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.037
    
    [GRAPHIC] [TIFF OMITTED] T2565.038
    
    [GRAPHIC] [TIFF OMITTED] T2565.039
    
    [GRAPHIC] [TIFF OMITTED] T2565.040
    
    [GRAPHIC] [TIFF OMITTED] T2565.041
    
    [GRAPHIC] [TIFF OMITTED] T2565.042
    
    [GRAPHIC] [TIFF OMITTED] T2565.043
    
    [GRAPHIC] [TIFF OMITTED] T2565.044
    
    [GRAPHIC] [TIFF OMITTED] T2565.045
    
    [GRAPHIC] [TIFF OMITTED] T2565.046
    
    [GRAPHIC] [TIFF OMITTED] T2565.047
    
    [GRAPHIC] [TIFF OMITTED] T2565.048
    
    [GRAPHIC] [TIFF OMITTED] T2565.049
    
    [GRAPHIC] [TIFF OMITTED] T2565.050
    
    [GRAPHIC] [TIFF OMITTED] T2565.051
    
    [GRAPHIC] [TIFF OMITTED] T2565.052
    
    [GRAPHIC] [TIFF OMITTED] T2565.053
    
    [GRAPHIC] [TIFF OMITTED] T2565.054
    
    [GRAPHIC] [TIFF OMITTED] T2565.055
    
    [GRAPHIC] [TIFF OMITTED] T2565.056
    
    Mr. Burton. Thank you, Mr. Newcomb.
    You are going to try to clamp down on tourism through third 
countries, is that correct?
    Mr. Noriega. Yes, sir, that is the plan. It is well known 
that many people travel going through Mexico, Central American 
flights or Caribbean flights travel to Cuba in contravention of 
travel restrictions. We will be taking steps and perhaps Mr. 
Newcomb can address this more explicitly, taking steps to 
inspect persons who are returning to the United States from 
these locations.
    Mr. Burton. How do you do that? Do they stamp the visas 
when they go into Cuba?
    Mr. Noriega. It is my understanding that generally they 
don't. You can inspect persons, run them through Customs.
    Mr. Burton. So it would be hard to have documented evidence 
if they went to Cuba than if you had some visual evidence. How 
do you catch them?
    Mr. Noriega. Perhaps Mr. Newcomb can address it but you can 
do Customs inspections.
    Mr. Newcomb. Just this afternoon, we had a fairly detailed 
discussion of exactly that issue. I don't want to go into too 
much detail lest I reveal sources and methods of law 
enforcement type activities. As information comes in, we are 
going to work with Homeland Security to make sure these third 
country ports are flagged for Homeland Security so that we have 
good information of where to deploy people and resources.
    What is interesting is there are Web sites from non-U.S. 
service providers who seek to alert people where it is a safer 
place to go, so we are going to be mindful of these Web sites 
as well and work smart with each other to ensure if we need to 
deploy enforcement personnel or to look at one port as opposed 
to another, we are sort of on the spot and are able to respond 
effectively.
    Mr. Burton. So you are going to use the Internet and other 
things to catch them?
    Mr. Newcomb. We are going to try to stay as smart as they 
are. We are going to try to put plugs where the plugs need to 
go.
    Mr. Burton. I have one more question for you, Mr. Noriega. 
Title III, you knew I was going to ask about that. We put that 
in there to put the hammer on people doing business in Cuba, 
buying and selling property confiscated by the Castro regime. 
President Clinton and now President Bush chose not to utilize 
Title III. Can you tell us if the President plans to use it or 
will he use that if necessary even though he did waive Title 
III?
    Mr. Noriega. Yes, the President has this discretion to 
waive it every 6 months to extend the waiver. He would have to 
make a judgment and justify that judgment in a statement to 
Congress justifying his decision every 6 months. The purpose of 
my testimony this afternoon in part was to lay out the 
rationale for waiving it inasmuch as the international 
community is more active than ever in criticizing the Castro 
regime. Recognizing that Castro is the problem, I think part of 
the reason they are willing to do that is that President Bush 
has, through the initiative for a free Cuba, drawn Castro out 
in the open and not taken what one would regard as the usual, 
sort of punitive measures against the regime but rather, 
challenge the regime to take some positive steps and we would 
respond with some positive steps as well. So we have sort of 
depolarized the issue. There is no longer a U.S.-Cuba 
confrontation and there is no longer an excuse for countries in 
the world to ignore Castro's abuses by simply saying the reason 
for this is U.S. policy because President Bush has challenged 
him and said we would make adjustments in the embargo if the 
regime would too.
    I think the President created this new environment and if 
we were to allow lawsuits to be filed under Title III, let the 
waiver lapse or not renew the waiver, I think precisely the 
opposite would happen. We would see countries which ironically 
are among some of the key proponents of change in Cuba, which 
might be adversely affected by a Title III decision abandon 
their efforts on behalf of a free Cuba. So from the point of 
view of the State Department, we think it is more justifiable 
than ever to continue that. However, it is the President's 
judgment and he has the right and obligation to review that 
policy decision every 6 months.
    Mr. Burton. You don't have to respond to this but I hope 
those people who had their property stolen by Castro and resold 
under long term leases, I hope the day comes that they can get 
restitution for the theft of their property by this tyrant.
    Mr. Newcomb, the Office of Foreign Assets Controls is 
charged with enforcing economic and trade sanctions against 
Cuba. They have been in place since 1962. In your opinion, how 
effective have those sanctions been in prevention of illegal 
trade and travel to Cuba?
    Mr. Newcomb. Mr. Chairman, in my opinion they have been 
very effective. We have a comprehensive economic embargo in 
place that applies to all U.S. persons wherever in the world 
located. It is my opinion that U.S. companies around the world 
understand this and take a very hands-off view toward Cuba.
    Of course there are always things we can do better and 
enforcing the travel ban and certain activities relating to 
remittances as announced by the President are things we are 
focusing on in particular, including those steps that I just 
laid out earlier this afternoon and developing other strategies 
to plug holes where people are taking advantage.
    Coming back to my initial answer to your question, as far 
as the international trade community, the U.S. trade community, 
they are very aware there is this program in place and they are 
aware of the enforcement actions that will happen in the 
trading environment and are taking appropriate action not to 
find themselves in the cross hairs of an enforcement activity.
    Mr. Burton. Mr. Franco, when the administration creates 
this new Commission for the Assistance to a Free Cuba, do you 
know what role USAID will be playing?
    Mr. Franco. I understand the President just announced that 
on October 10 but the announcement was just of the co-chairs.
    Mr. Burton. So you haven't been charged yet?
    Mr. Franco. I have a very close working relationship with 
Assistant Secretary Noriega and other colleagues at State and I 
know the future assistance and transition activities in Cuba 
will be important for USAID. The Administrator, Andrew Natsios, 
has written extensively about the need to prepare for a 
humanitarian response upon the collapse of the regime prior to 
assuming his post as Administrator. I have worked with my 
colleagues and as that is developed, I believe USAID will be 
called upon to be of assistance.
    Mr. Burton. Ms. Watson.
    Ms. Watson. I want to thank all three of you gentlemen for 
coming and sharing with us what you know of your policies and 
your plans, your proposals. I took a trip to Cuba. We had 6 
hours with Fidel Castro. I found him to be one of the most 
intelligent world leaders today. He can talk on any subject 
that was raised. We spent our time talking about how we would 
improve the quality of life for the people of Cuba. We talked 
about infant mortality. He did a statistical equation down to 
0.769. I made note while he was talking. One of our members had 
been in the Peace Corps in Medellin, Colombia and gave us the 
history of Government in Colombia. When I told him I 
represented Hollywood and I would like to take him around and 
show him, he said, can you get me a star on the Walk of Fame. 
When Carol King introduced herself as a songwriter, he said, 
``Yes, Tapestry, the longest selling album ever, 8 weeks No. 1 
on the charts.'' I said to him, ``Did you do a CIA check on 
each one of us?''
    So I thought the way to deal with this person is through 
the positive kinds of things that he envisioned for his people. 
He told us about sending 56,000 Cuban trained doctors who have 
to commit to 2 years service in developing countries. He talked 
about trying to find a way to educate the disabled, the 
developmentally disabled people, the mentally ill people and so 
on. We spent 6 hours.
    So I guess I would ask this to Deputy Secretary Noriega. Is 
there a possibility through the Department of State that we 
could have a conference with Fidel Castro here on U.S. property 
where we could talk to him about mutual goals because the goals 
he said he had for his people were the goals we have for ours. 
However, what he does, and I was very, very disappointed to 
find out how he cracked down on journalists and the executions. 
I said, how can we help you? These things happened after we 
left there.
    However, could we appeal to his intellect? We went out on 
the communes. We went to the medical school. I stopped people I 
saw walking around and talked with them. I saw no homelessness 
and I didn't see too many starving people, so something is 
going on there. Could we have a conference? If we can sit down 
and talk about how we are going to get allies to support us in 
trying to rebuild Iraq, could we not try to rebuild Cuba by 
holding a conference of some of our allies and some of his and 
see if we could talk sense? He is a brilliant mind. If none of 
you have met him, you ought to. I just think there is a 
different approach we could use with him.
    I am not forgiving the atrocities. I understand but I think 
there is a way to get to this man because he said to us, 
listen, on September 11, I offered you landing space, places to 
land. When we brought all our aircraft down, he said, I offered 
you they could land here in Cuba. He also said, think of what 
we could do together in interdiction because all the boats come 
through this channel up to the United States with drugs and 
that scored with me. I said maybe we could work out something 
with this guy.
    What are the possibilities of holding a conference, 
bringing him on our turf and seeing what we can do to change 
what actually is occurring that confronts the goals that I am 
sure he wants to reach with communism. What can we do and have 
you thought about it?
    Mr. Noriega. Representative Watson, I think there is very 
little we could do to help him reach his goals for communism 
because it is a failed experiment that is doomed to fail. I 
would shudder to think that the goals he has for his people are 
the goals we have for our people because his people are trapped 
in a dictatorship with absolutely no rights where people are 
subject to the whim and arbitrary abuse of power by this 
dictator.
    Incidentally, among the charges for which dissidents are 
now serving long prison sentences was meeting with members of 
the U.S. Congress, carrying on this precise sort of dialog you 
are talking about. I would suggest that the real dialog that is 
necessary is Castro with his own people.
    Ms. Watson. Would you yield for a minute?
    Mr. Noriega. By all means, yes.
    Ms. Watson. Can you get to what I am proposing? What do you 
think about bringing him here, inviting him to come here and 
sitting down? Let us not talk about the form of government 
because I don't think we have the right to impose our form but 
have you thought about sitting down with this person directly?
    Mr. Noriega. Representative Watson, I think that would be--
--
    Ms. Watson. Have you thought about it?
    Mr. Noriega. I have thought about it and I don't think much 
about it. I think it would be a colossal waste of time because 
I don't think Castro is interested in changing at all.
    Ms. Watson. You gave me the answer that I was seeking.
    Let me ask what do you think we could do to improve the 
life of the Cuban people? What could we actually do?
    Mr. Franco. First, Congresswoman Watson, I just want to 
concur fully with Secretary Noriega. With respect to what we 
can do, the question should be more importantly what Fidel 
Castro can do.
    Ms. Watson. No. No. I asked the question that way because I 
want you to think along with me. We were told, and I don't know 
how true this is, that there have been 650 attempts on his 
life.
    Mr. Franco. I don't know about that.
    Ms. Watson. I am not thinking of a punitive approach. That 
is why I am asking you. I am going to go down the line. What 
can we do to improve the quality of life for the Cuban people?
    Mr. Franco. As a starter since my responsibility is from 
the development standpoint and you mentioned you didn't see any 
starving people or homeless people in Cuba, in my testimony I 
refer to statistics provided by the World Food Program and the 
FAO. Those are not U.S. Government controlled organizations by 
any stretch of the imagination. They are U.N. organizations. 
They have statistics and I would like to meet with you 
privately, if you like.
    Ms. Watson. Have you been there yourself?
    Mr. Franco. No, but I am relying on the studies by the 
United Nations organizations that have been there for long 
periods of time and have done the studies. They are FAO and 
World Food Program studies which we and the other developed 
countries of the world rely on. To my knowledge, I don't think 
anyone has challenged those statistics but they are alarming in 
terms of the deficiencies in Cuba.
    If Fidel Castro is really concerned about the well being of 
the Cuban people, this administration offered $35 million in 
humanitarian assistance after Hurricane Michelle to Cuba, 
directly to the Cuban people and that was rejected by the 
Castro regime. So what we can do is largely limited because of 
the intransigence, the impediments and obstacles places by the 
government in the way.
    Ms. Watson. Do you want to tell me what we can do?
    Mr. Franco. What we can do is what we are doing, promoting 
free thinking in Cuba, we are providing food and medicine to 
people in Cuba who are doing everything they can to bring about 
change on the island. What we cannot do and what we will not do 
is help the Government of Cuba.
    Ms. Watson. Please, please, don't take me there. I know all 
of that. I am trying to see if you have any imagination about 
what we might be able to do for the people. You answered part 
of the question.
    Mr. Noriega. May I address that same question?
    Ms. Watson. Yes. I wanted to hear from Mr. Newcomb.
    Mr. Burton. Mr. Newcomb, she addressed that question to 
you.
    Mr. Newcomb. I am sorry, could you repeat your question?
    Ms. Watson. Yes, very simple. What can we do to help the 
people of Cuba?
    Mr. Newcomb. Let me make a few observations. Again, I am 
charged with enforcement of the embargo not with policy. I 
certainly associate myself with the comments of Mr. Noriega. 
The observations I have are built on the wealth of experience I 
have had over the years of hearing people that are applicants 
for licenses, people in congressional hearings and so forth.
    My guess is you saw what Fidel Castro wanted you to see. 
People that go to the tourist hotels see what he wants people 
to see. There is still an oppressed class that people don't 
see. We have had many programs. We have had people to people 
exchanges; we have had support for the Cuban people but what 
this boils down to is working through a government channel. 
Everything has to go through him. He controls everything. He 
controls the thought, he controls the agenda. We have tried 
this numerous times, programs going back years, to try to get 
things like you are speaking about and people to people, it 
doesn't end up that way. It ends up people to government. 
Support for the Cuban people ends up support for the Cuban 
Government. He is in the middle of it all.
    That would be my initial reaction to your thoughts.
    Mr. Burton. Thank you, Mr. Newcomb.
    We will come back if you have more questions, Ms. Watson.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
thank the witnesses here today for your testimony. I regret 
that after this brief exchange I have to go to a subcommittee 
hearing on Iraq, so I will not be here for the second panel. I 
apologize for that.
    As you gentlemen know, because you are very familiar with 
Cuban policy, you are the experts, my congressional district 
has a very high number of Cuban Americans, a high number of 
people who come from the island of Cuba. I don't need to go to 
the island of Cuba to know what is going on there because it is 
in my district. They literally are dying to come to the United 
States. After 44 years of dictatorial rule of Fidel Castro, the 
Cuban people still love the United States, even though they 
have been hearing this propaganda for all these years because 
they know the United States is their friend, they know here 
they have freedom, they have hope, they have opportunity, they 
have democracy. I know about the situation in Cuba without 
reading the reports that Mr. Franco has referred to and they 
are impartial reports. I know that the Cuban people are hungry, 
malnourished, have inadequate health care because those are my 
constituents. They arrived on the boat yesterday and they died 
coming to the United States. I represent from Miami Beach all 
the way down to Key West to the southernmost point of the 
United States. I see this tragedy each and every day. What is 
incredible is they are young people. These are the people who 
have only known Fidel Castro. These are people who come from 
the revolution who should be worshiping Castro and instead they 
are coming here to the United States because they know that 
propaganda is false. They know the United States is the most 
humanitarian country in the world.
    As all of us know, if you put all of the countries together 
and all of the humanitarian aid, all those countries that love 
the Cuban people so much, if you put all of their aid together, 
food and medicine, it does not equal the amount of food and 
medicine the United States brings to the Cuban people. Forty-
four years of economic entanglements and engagement with Fidel 
Castro, that Europe, the Canadians, the Mexicans, you name it, 
every country in the world except for the United States deals 
with Castro, how are the Cuban people any closer to freedom? 
How are they any closer to democracy? How are they any closer 
to having their human rights respected?
    For people to say it is our embargo that is hurting the 
Cuban people, I say, well, what has economic engagement with 
Castro brought to the Cuban people? They are hungry. They are 
lacking in health care. I have family members in Cuba. I know. 
I represent those people because they come ashore every day.
    Does our U.S. embargo say don't hold free elections? Of 
course it doesn't. Castro is the one who doesn't hold free 
elections. Does our Cuban policy say don't have multi-party 
systems? No, it is Fidel Castro who says there will only be one 
party, the Communist Party. Does our embargo say to Castro, 
don't have free press? No. There are only two newspapers 
sanctioned by the Castro press. Does it say do not have any 
free media? No. There is only state-sponsored television that 
is being allowed to be seen by the Cuban people. In fact, if 
you are Cuban and you give an interview to a non-sanctioned 
newspaper or media outlet, it is a crime in Cuba. It is not 
U.S. policy that is keeping the people of Cuba hungry and 
hungry for freedom. It is Castro's failed policy.
    I recognize that some of our congressional members have 
gone to visit with the dictator and they certainly eat a 
wonderful meal. I wish my family in Cuba would have half of 
that meal. I know Ms. Watson went. I am sure they had a 
scrumptious meal. Castro is not hungry and he does not lack for 
adequate health care. When my family member has to go to the 
hospital, they bring bed sheets, they bring soap, they have to 
bring medicine and they have to bring the light bulb for the 
operating room and for their room. That is real and that is 
true.
    The visitors who go stay in nice hotels. Cuban people can't 
even go to those hotels, even if they could afford it. Cuban 
workers get paid by Castro in worthless pesos but the investor 
pays Castro in dollars and the Cuban worker gets a pittance.
    I just wanted to clarify from a different perspective, not 
to take anything away from what Ms. Watson rightfully said but 
from a person who not only was born in Cuba but lives with it 
every day because the people I represent are from that country 
and my newest arrival probably got here yesterday and loves the 
United States and hates the Castro regime but that Cuban 
arrival last week was probably in a mass rally saying down with 
these Yankee imperialist pigs, down with the embargo but you 
give that person anything that floats, this little thing, and 
they will try to come over here and join us because they know 
the United States loves freedom. That is all they want. That is 
what I want for my children and I know that is what all Cuban 
families want for their children.
    I want to thank the three of you for your testimony and for 
the work that you do each and every day. I know that it is 
tough. I know it is tough to go before the committees and you 
have work to do but you come here and testify and fight the 
good fight. Thank goodness we have you there because if not, 
sanctions would have been lifted and the Cuban people when they 
are there, they say, yes, lift those sanctions. When they come 
here, they say, no, we are fine, that is fine, don't worry 
about it. That is the reason we are elected from our 
constituency. Otherwise you would have other people who would 
be espousing other points of view but we are elected from our 
community so we know what our community thinks. We thank you 
for your valuable service. I know it is tough every day.
    Thank you.
    Mr. Burton. Thank you.
    We are going to let you guys go but I just wanted to say to 
Ms. Watson, who is a dear friend of mine. I love her dearly. I 
am going out to California to have a hearing with her on 
another subject but I am going to buy her a book. It is called 
``Against All Hope'' by Armando Valadares. I was reading it on 
a plane and I started crying. The guy next to me thought I was 
dying or something and I said, no, it is just about this book. 
If you read that book and see what Armando Valadares, who was a 
supporter of the regime when they took over, you will find it 
really is a tragedy some of the things going on down there.
    Any final comments you would like to make quickly?
    Mr. Noriega. Two seconds. First off, when we come up here 
to testify, we are working and we recognize this is an 
important part of our responsibility to come up and be 
accountable to Congress.
    The second thing I would say is that the Project Varela is 
precisely about asking the Cuban people how to make their lives 
better and giving them a role in making that decision. Castro 
has come to New York, he is not big on dialog, he is very big 
on monolog but he has had opportunities. He has had his say. 
The Cuban people are the ones who should have their say.
    At any rate, I thank you for the opportunity and would look 
forward to continuing this dialog with you, Ms. Watson.
    Mr. Burton. Thank you, gentlemen.
    Our next panel is: Mr. Frank Calzon, executive director, 
Center for a Free Cuba; Mr. Eric Olson, advocacy director for 
the Americas, Amnesty International; and Mr. Tom Malinowski, 
Washington advocacy director, Human Rights Watch. We have three 
people who are dealing with the question of human rights. We 
really appreciate your being here. Please remain standing so I 
can swear you.
    [Witnesses sworn.]
    Mr. Burton. The hardest one to start is Mr. Malinowski, so 
why don't we start with you.

 STATEMENTS OF FRANK CALZON, EXECUTIVE DIRECTOR, CENTER FOR A 
  FREE CUBA; ERIC OLSON, ADVOCACY DIRECTOR FOR THE AMERICAS, 
AMNESTY INTERNATIONAL; AND TOM MALINOWSKI, WASHINGTON ADVOCACY 
                  DIRECTOR, HUMAN RIGHTS WATCH

    Mr. Malinowski. Thank you, Mr. Chairman and Ms. Watson, for 
the opportunity to come and testify before you and for your 
leadership on so many human rights issues, including this one. 
Thank you for keeping the spotlight on human rights in Cuba.
    My organization has been working on human rights violations 
in Cuba for many years. I go into some of the tragic, 
depressing detail about the situation in my written testimony. 
I won't dwell on all of it here except to say that this year's 
crackdown on political dissent in Cuba which a number of 
others, including you, have mentioned was really the worse we 
have seen in a decade or more there, over 75 courageous men and 
women, dissidents, sentenced to an average of 19 years in 
prison in sham trials over just a period of about 4 days for 
nothing more than expressing their desire to live in a more 
democratic society. This is a merciless dictatorship at work 
and I completely agree with your characterization of the Castro 
government and its abuses, Mr. Chairman.
    I think even critics of the embargo need to acknowledge 
that none of this crackdown, none of this horror is in any way 
the fault of the United States or the fault of the embargo. The 
responsibility lies with Castro and his government period, and 
we all need to acknowledge that. We should also agree that this 
is no time to reward Fidel Castro, this is a time for 
maximizing effective pressure on his government.
    The question before us, and we need to be very tough minded 
in assessing this is whether the current embargo as it is 
currently constituted is the best way of maximizing that 
pressure. In my view, with all respect to people on both sides 
of this debate who share those goals, it is not. I say that 
someone who usually supports targeted sanctions against abusive 
governments. For example, my organization applauded the 
Congress a few weeks ago when you all imposed tough economic 
sanctions on Burma and we are very skeptical of arguments the 
trade with America or exposure to American values in and of 
itself can somehow convince repressive governments to be kinder 
and gentler to their people.
    It does seem to me that any American policy designed to 
promote human rights in a country like Cuba has to meet a 
couple of basic tests. First of all, does that policy advance 
the interests of those who are struggling to promote human 
rights in the country concerned. Is it more likely to be 
effective than the alternatives? I think the current policy 
does not meet those tests.
    First of all, many of the dissidents we have been talking 
about here throughout this hearing in Cuba believe that the 
embargo as currently constituted does go too far, including 
Oswaldo Paya, the leader of the Varela Project. These are the 
Havels and Walesas of Cuba and just as we heeded them in the 
1980's when they were struggling for freedom in the former 
Soviet Union, I think we do need to bring their voice into this 
discussion as well in terms of what is the best American 
policy.
    Why do they feel this way? First of all, they see the 
embargo as being indiscriminant rather than targeted so it 
enables Castro to shift the blame to the United States for the 
Cuban people suffering wrongly but effectively. Second, it 
isolates the Cuban people from the world making it easier for 
the government to control what they see, hear and know. 
Finally, and most importantly, it is bitterly opposed by most 
nations. So it enables Castro to divide the international 
community. Again, I am for maximizing international pressure 
but I think the irony of the embargo as we have it now is that 
it leads to less international pressure, not more, on Cuba.
    At the same time, I wouldn't argue that simply ending or 
relaxing the embargo would be an effective strategy either. 
Simply having American tourist joining the Canadians and 
Europeans on Cuban beaches or American CEOs joining the 
Europeans signing contracts isn't going to make a profound 
positive difference either. There does need to be carefully 
targeted, multilateral pressure and middle ground between 
unquestioning engagement on the one hand and an all or nothing 
approach that plays into Castro's hands on the other.
    We need to ask what does Castro fear most from the United 
States? I don't think it is the continuation of the embargo. I 
don't think it is the demise of the embargo either. I think 
what he fears most is the prospect that the United States might 
some day get together with Latin America, with Europe, with 
Canada on a common, effective strategy for defending the rights 
of the Cuban people. That is what I think we need to work 
toward, focusing not so much on Havana as the target of our 
policies initially but on the Europeans, the Canadians and the 
other Latin American democracies to forge that kind of 
strategy.
    I think we have more of an opportunity now because of the 
growing international opposition to this crackdown. We need to 
be urging Latin democracies to speak forcefully against 
political repression in Cuba to stop backing Cuban membership 
in bodies like the U.N. Commission for Human Rights. We should 
be pressing Latin American diplomats to meet with Cuban 
dissidents, we should be urging European countries to impose on 
Cuba the same kinds of targeted economic sanctions including a 
visa ban, for example, and an asset freeze as they have imposed 
on Burma and Zimbabwe and other similarly oppressive countries. 
We should be working with them to develop common rules 
governing economic investment and tourism, rules that would 
diminish the Cuban state over the Cuban peoples' lives.
    Let me say one word about the tourism issue because I know 
it is central right now. I totally agree that the Castro 
government has a death grip on the Cuban economy and the Cuban 
people don't really benefit from the tourist dollars going into 
Cuba because they control the employment of the workers and 
every dollar goes into the coffers of the regime. The question 
is how do you change that? I don't think you necessarily change 
it simply by taking away from Cuba the small trickle of 
American tourists that are going in there because you are still 
going to have a stream of Europeans and Canadians doing exactly 
the same thing with no incentive for Castro to change.
    I think you are much more likely to change it if you can 
get together with the Europeans, Canadians and others and press 
the Castro government for a different set of rules. We have 
leverage acting together, we don't have that kind of leverage 
alone.
    I think the problem with the embargo and the key argument 
for beginning to think about it anew is that it makes the 
United States impotent in pressing its allies for these kinds 
of tougher measures. I think the Bush administration knows this 
and in many ways it has barely tried to forge that kind of 
coalition, despite the clear commitment of folks like 
Ambassador Noriega. For example, last year or earlier this 
year, it made virtually no effort to convince Latin American 
countries to get Cuba off the Human Rights Commission. It knew 
it would fail because Castro has succeeded in making this 
embargo a bigger issue than his own repression.
    Again, in summary, I think the goal ought to be not a 
policy of no sanctions but a middle path that isolates the 
Cuban Government, not the Cuban people. I fear that so long as 
we are unwilling to climb down to that kind of tough but 
sensible policy, it is going to be harder to convince our 
allies to rise up to it.
    Thank you.
    [The prepared statement of Mr. Malinowski follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.057
    
    [GRAPHIC] [TIFF OMITTED] T2565.058
    
    [GRAPHIC] [TIFF OMITTED] T2565.059
    
    [GRAPHIC] [TIFF OMITTED] T2565.060
    
    Mr. Burton. That is very interesting and we will talk 
further.
    Mr. Olson.
    Mr. Olson. Thank you, Mr. Chairman, for the opportunity to 
testify today. I want to thank you and Representative Watson 
for your probing questions that are forcing us to think 
creatively about what seems to be an intractable problem in 
Cuba.
    Amnesty International has been monitoring the human rights 
situation in Cuba since the early 1960's and we have extensive 
reporting about the human rights situation there. 
Unfortunately, like our colleagues at Human Rights Watch, our 
access to the island has been severely limited. In recent years 
we have not been able to do an onsite, in person visit there 
since 1988, so we have had to rely on other sources of 
information to try to report on the human rights situation 
there.
    The crackdown on political dissidents that began on March 
18 and the execution of three would-be hijackers on April 11 
are alarming and deeply disappointing occurrences that Amnesty 
International has denounced locally and publicly. Sadly they 
represent the latest chapter in a long line of grave human 
rights violations committed by the Government of Cuba. On the 
basis of the information currently available, Amnesty 
International considers the newly detained prisoners to be what 
we call prisoners of conscience. As a result, the number of 
confirmed prisoners of conscience in Cuba has risen from 6, 2 
years ago, to 89 today.
    What distinguishes this crackdown from many other previous 
examples of mass arrest is not the number, however, which is 
unusually large, but the laws that were used to convict the 
dissidents and the summary trials and very harsh sentences 
handed down shortly after the detentions took place. Among the 
latest group of dissidents arrested, 75 have received sentences 
ranging from 6 to 27 years. Some of the prisoners were 
convicted under the law for the protection of the national 
independence and economy of Cuba, known as Law 88 passed in 
February 1999. Though passed in 1999, this crackdown marks the 
first time that the provisions of Law 88 have been applied to 
criminal proceedings in Cuba. Law 88 itself is presented as a 
Cuban response to perceived U.S. aggression and the crackdown 
as a reaction to a U.S.-led rather than domestic threat. 
Nevertheless, Amnesty International believes the law places 
unlawful restrictions on internationally recognized rights such 
as the freedom of expression. Furthermore, the Cuban 
constitution itself places clearly excessive limits on the 
exercise of fundamental freedom. The exercise of fundamental 
freedoms in ways that are perceived to be against the Cuban 
system are not constitutionally protected. Anybody who works or 
expresses his opinion that is perceived as being against the 
system has no constitutional protection in Cuba. Law 88 and 
other laws within the Cuban system place further restrictions 
on these freedoms in violation, we believe, of international 
standards.
    Law 88 calls for sentences of 7 to 15 years in prison for 
passing information to the United States that could be used to 
bolster anti-Cuban measures such as the U.S. economic embargo. 
The punishment can rise to 20 years if the information is 
acquired surreptitiously. The legislation also bans the 
ownership, distribution or reproduction of ``subversive 
materials from the U.S. Government'' and proposes terms of 
imprisonment of up to 5 years for collaborating with radio and 
TV stations and publications deemed to be assisting U.S. 
policy.
    I should note that one of the people detained was actually 
tried and sentenced in part because he was giving information 
to Amnesty International. That is the level of restriction on 
the free expression and association of people.
    The question here though is not before in this committee, 
it is not just how bad is the situation in Cuba but in fact, 
what the United States should do about it. The recent crackdown 
is a continuation of Cuban Government policy of detaining 
people for their political, religious and other conscientiously 
held beliefs and to restrict the freedom of expression and 
association both in law and in practice. The modest signs of 
tolerance that existed just a couple of years ago have now been 
swept away. In this context, Amnesty International feels it is 
important to carefully consider policy options that could 
effectively contribute to improving human rights in Cuba. What 
is it in fact that is going to improve human rights there? Part 
of Amnesty International's mission is to make recommendations 
to the Government on how this can in fact happen.
    In the interest of time, I am not going to go over all the 
recommendations here that we have given to the Cuban 
Government. It is found in my formal statement.
    Mr. Burton. You can submit those for the record.
    Mr. Olson. They have been submitted for the record. There 
is a number of them and I don't want to imply that we are being 
light on the Cuban Government. We have over 15 recommendations 
here specifically to the Cuban Government. Maybe a bit in 
answer to Ms. Watson's questions as well, I did want to mention 
what we thought are key recommendations to the United States.
    Amnesty International urges the U.S. Government to place 
human rights concerns at the center of its decisionmaking on 
Cuba. The United States should take into account the impact its 
policies will have on day to day life for average Cubans and 
their enjoyment of basis human rights. AI is particularly 
concerned about measures that the United States might consider 
that could spark humanitarian crises in Cuba. Such a crises may 
lead to worsening of the human rights situation. AI rejects 
proposals that would worsen humanitarian conditions in Cuba and 
are aimed at destablizing the country. Political instability 
and humanitarian crises place civilians at risk of further 
human rights violations and should not be considered as an 
option.
    AI encourages the U.S. Government to reconsider the wisdom 
and efficacy of its economic embargo on Cuba. The 40-plus years 
of the embargo does not appear to have the intended consequence 
of punishing Castro, nor has it contributed to a betterment of 
human rights in Cuba. In some instances, it has had negative 
impacts on human rights. The embargo has had ramifications not 
only on economic and social rights, but also it has been used 
by Cuban officials who cite it as a justification for 
repressive measures.
    Amnesty International recommends that the United States 
look seriously at ways to in fact reduce hostilities with Cuba 
and to lower the tensions that contributed to the broader 
negative political context for the latest crackdown. I think 
there is a variety of ways in which we can seek to lower the 
tensions between the countries. Amnesty doesn't believe that 
means total withdrawal of the embargo as Mr. Malinowski has 
said but that we need to see the embargo is having a 
potentially detrimental effect on the average Cuban in Cuba.
    Thank you and I will leave it at that. I welcome your 
questions.
    [The prepared statement of Mr. Olson follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.061
    
    [GRAPHIC] [TIFF OMITTED] T2565.062
    
    [GRAPHIC] [TIFF OMITTED] T2565.063
    
    [GRAPHIC] [TIFF OMITTED] T2565.064
    
    [GRAPHIC] [TIFF OMITTED] T2565.065
    
    [GRAPHIC] [TIFF OMITTED] T2565.066
    
    [GRAPHIC] [TIFF OMITTED] T2565.067
    
    Mr. Burton. Thank you, Mr. Olson.
    Mr. Calzon, I know you are just chomping at the bit because 
you probably have a little different approach, so we recognize 
you, sir.
    Mr. Calzon. Thank you, Mr. Chairman. I am delighted to be 
here to appear before you on behalf of the Center for a Free 
Cuba. As most Cuban Americans could tell you, you are a hero 
not only to Cuban Americans but many people inside Cuba.
    I am also pleased to appear before Congresswoman Watson 
whose experience as an ambassador provides an important 
dimension to her work in the Congress.
    I would like to ask that my full statement be placed in the 
record and take just a minute because I don't know if it will 
come up in the question and answer period to make a couple of 
brief comments.
    I am by training a political scientist and I have written a 
number of pieces on the American Revolution and I wasn't there, 
so that is one of the misconceptions, one of the fallacies of 
social science that says that you have to be there. Sometimes 
from far away you could have a better idea of what is happening 
in one place than discussing the issue with the dictator for 6 
hours but that is just a minor point.
    On the issue of the infant mortality rate, I was always 
intrigued by that. I talked to a number of Cuban doctors. You 
should be aware of one fact. Mr. Castro not only manipulates 
statistics and Cuban women who have a problem pregnancy are 
encouraged to have an abortion because when you have an 
abortion, that does not show up in the infant mortality rate. 
Mr. Castro has been in power for over 40 years and the Cubans 
have begin to act following the advice of the Holy Father. 
Castro has responded by declaring Cuba's socialism irrevocable 
and untouchable. I do not share the views of some of the other 
witnesses that you have to concentrate so much on the United 
States and Cuba. The problem has never been Cuban and the 
United States.
    Mr. Castro is willing to talk about Cuba with President 
Carter, he is willing to talk about Cuba with the King of Spain 
and willing to talk with Members of Congress. You talk about 
imposing your views or the United States imposing its views. 
One way of not imposing America's views is to encourage Mr. 
Castro to meet with Cuban bishops and to allow Cubans in Cuba 
to do what we are doing here.
    So the whole idea of trying to determine Cuba's problems 
between some foreigners and the Cuban dictator, I don't think 
the Cuban people really like that.
    On the issue of the impact of the embargo, in Cuba there 
are shortages of oranges. Are we going to ship oranges from 
Florida? There are shortages of fish. Are we going to send it 
from Maine? The whole idea is that when I met with President 
Havel of the Czech Republic, I said when did the shortages end 
here? Did they end with trade with the West? He said, no, they 
ended with the end of communism and the same thing will happen 
in Cuba. There is a tendency to blame the United States for 
everything that happens in the world. Cuba, Mr. Castro has a 
great responsibility.
    When a child is sick in Cuba and a father goes to a 
pharmacy, there are no medicines there but when a foreigner 
goes to Cuba, the medicine is there. The hotels where 
foreigners stay are segregated, Congresswoman, and the 
restaurants and clinics. In this country, Martin Luther King 
had a major campaign so that anybody could go to a restaurant. 
As a Cuban, I think I would hope that Americans could travel 
anywhere they want. If Americans go to Cuba and subsidize 
apartheid in Cuba, I am not in favor of tourists going to Cuba. 
If they go to Cuba and they say to Mr. Castro, let the Cubans 
have the same rights that foreigners have in Cuba, how come a 
foreigner can have a restaurant, a foreigner can have an 
enterprise and Cubans cannot? Cubans don't have a right to go 
to a hotel and an American Congresswoman can go and stay in 
those hotels? I don't know. I see something wrong with that.
    Beyond that, I do have a number of recommendations in the 
paper, including placing a C-130 in the Florida Straits so that 
TV Marti can be seen in Cuba. I have another recommendation. I 
think Ms. Watson and Chairman Burton ought to do more of these. 
I think it is important for the American people to learn, for 
example, that there are FBI fugitives in Cuba that Castro has 
given safe haven to American murders who kill American police 
officers. You ought to call the Justice Department and they 
will send you the list. Those are some of the facts, not the 
rhetoric that I think ought to be brought to the attention of 
the Congress and the American people.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Calzon follows:]

    [GRAPHIC] [TIFF OMITTED] T2565.068
    
    [GRAPHIC] [TIFF OMITTED] T2565.069
    
    [GRAPHIC] [TIFF OMITTED] T2565.070
    
    [GRAPHIC] [TIFF OMITTED] T2565.071
    
    [GRAPHIC] [TIFF OMITTED] T2565.072
    
    [GRAPHIC] [TIFF OMITTED] T2565.073
    
    [GRAPHIC] [TIFF OMITTED] T2565.074
    
    Mr. Burton. Thank you, Mr. Calzon. I wish you would tell us 
what you really think. You have been a good friend for a long 
time and I appreciate your comments.
    Let me ask a few questions and then I will yield to my 
colleague who I know has some questions.
    Mr. Malinowski, I know this is a dangerous question to ask 
you but what kind of changes or proposals are you talking about 
in the embargo that you think would be beneficial?
    Mr. Malinowski. I would start very gradually. I wouldn't 
throw the whole thing out.
    Mr. Burton. I don't think that is going to happen.
    Mr. Malinowski. Honestly, I would start with the travel ban 
and I would do it not to send some message to Castro or to 
appeal to his goodwill because I don't believe in his goodwill, 
I would use it as the basis for sitting down with our allies in 
Europe, in Latin America, in Canada, the key players in this, 
to try to forge a common strategy and a common policy. We don't 
have that right now and we need it.
    Mr. Burton. Let me ask you a question regarding your 
answer. Right now if an American or anybody in the world goes 
to a resort in Cuba, they pay in dollars. The people who work 
there who are Cubans can't stay there, they come and work 
during the day and have to go home. They can't be there except 
to work. They are not paid in dollars, the dollars go to the 
Cuban Government and they pay them in pesos. I have been told 
that people who make $400 or $500 a month at a resort would get 
about 500 pesos which would be somewhere between $5 and $10 a 
month to live on. How could they benefit if we allowed tourism 
to go to Cuba? It would certainly increase the amount of money 
going to the hotels and hence to the Cuban Government but I am 
not sure it would help the quality of life for the Cuban 
people.
    Mr. Malinowski. First of all, I completely agree with you. 
The situation you describe though is completely the same as the 
situation we faced in the former Soviet Union in Poland, 
Czechoslovakia and Hungary in the darkest days of communism. 
Even then we never restricted the rights of Americans to travel 
to those countries which was a modestly beneficial thing in the 
sense that it also allowed organizations like mine and Amnesty 
International and others to go in under the cover of tourism to 
do some very good work with dissidents.
    My central point and my main response to your question is 
that we need to ask how do we change the state of affairs that 
you describe? How do we change the system that robs the workers 
of those hotels of their livelihood and that denies us the 
ability to create a little bit of private free space as exists, 
for example, in free enterprises in China, distinct from Cuba 
where you actually can have a different kind of relationship 
between employees and employers.
    I don't think the United States has the leverage to change 
that state of affairs by itself. We don't have that kind of 
economic leverage with Cuba. We do have it potentially if we 
could act in concert with our allies, with the Europeans, the 
Canadians, the investors and joint ventures. We could together 
demand that the Cuban Government change those rules. I would be 
for a very tough mined policy but one that is multilateral 
because I think it would be more effective.
    Mr. Burton. Mr. Olson, you indicated that you get your 
information on human rights violations in a different kind of 
way because you can't converse directly with the people who are 
in the prisons as political prisoners. How do you get that 
information?
    Mr. Olson. Through a variety of sources, through people in 
Cuba who share information with us, some family members, other 
NGO's that operate there, people who travel back and forth that 
provide us information. Frankly, it might seem surprising but 
even on these cases of the 75 people that were arrested, 
detained and jailed, we got a healthy amount of official court 
records that allowed us to carefully analyze the legal 
proceedings, the laws being used, the charges against them.
    Mr. Burton. It was 4 days, wasn't it?
    Mr. Olson. Yes, it was less than a week.
    Mr. Burton. So it was kind of a sham?
    Mr. Olson. Absolutely. Totally a sham and that is why we 
have been able to look at the kinds of laws used, the kinds of 
accusations against people which we believe are completely 
inconsistent with any international standard of human rights.
    Mr. Burton. Mr. Calzon, you heard those two responses. Why 
don't you respond to those two questions about lifting the 
embargo somewhat so that tourists can go there? Would that help 
the quality of life of Cubans?
    Mr. Calzon. Mr. Chairman, it would be my hope that some day 
we could come to some of these hearings and deal with the facts 
and then we could disagree on what the facts mean. For example, 
when dealing with tourism, not only do the tourist dollars go 
to the Cuban Government but go the worst agencies of the Cuban 
Government. A big part of the tourist industry in Cuba is under 
CAVIOTA. CAVIOTA is a front company for the Cuban secret police 
and the Cuban armed forces. So not only the dollars go to 
Castro but the dollars go to the agencies there to oppress the 
Cuban people. If anything I say here today is incorrect, I am 
sure the other witnesses will correct it.
    The other thing is when you deal with Eastern Europe and 
you say the embargo didn't work in Eastern Europe, if we are 
going to look at Eastern Europe, then we have to see what we 
did, what the United States did in Eastern Europe. The amount 
of resources being used to promote democracy in Cuba are a 
very, very tiny percentage of what we used to promote democracy 
in Poland, what we used to promote democracy in the Czech 
Republic. The idea of simply being nice to Mr. Castro doesn't 
work. I think some of the things you have heard, the 
information you have heard here today is a little dated. If you 
look at what happened this year, for example, why don't we pay 
attention to the Europeans? The Europeans three major important 
spokesmen for European public opinion are the former Presidents 
of the Czech Republic, Hungary and Poland, Havel and Walesa, 
for example. This is what they said. They are not saying the 
embargo should be lifted. It says, ``One of the things that 
should be done is to put aside transatlantic disputes about the 
embargo on Cuba and to concentrate on direct support for Cuban 
dissidents, prisoners of conscience and their families.'' We 
are talking about putting pressure on the Cuban Government. The 
Europeans have done that. The European Union has conditioned 
humanitarian assistance to some reform in Cuba. The result, Mr. 
Castro told the Europeans he does not need humanitarian 
assistance. The people who are hungry are not Mr. Castro.
    If you look at country after country, the Germans canceled 
their participation in a book fair event; the Dutch are now 
going to an art show in Cuba. The Spanish have a major crisis. 
Castro, a Cuban dictator, calls Vice President Aznar a little 
fuhrer with a little mustache. Mr. Castro called Berlusconi of 
Italy ``Benito.'' Mr. Castro says that the Costa Ricans are 
lackeys of the United States. There is no real issue today. The 
embargo is no longer the issue. The Europeans are putting 
pressure on Castro.
    As a matter of fact, you talk about conditions, the 
Europeans announced a few weeks ago that they are bringing down 
the level of contacts between their diplomats and high ranking 
Cuban Government officials and instead, they want to increase 
contacts with the dissidents. So the suggestion of Ms. Watson 
perhaps at another time that would have been a good idea, 
President Carter sent folks to Havana to try to reach an 
accommodation. Mr. Reagan sent General Walters to try to reach 
an accommodation but at time when the Europeans are saying the 
policy of engagement has not worked, this is what the Europeans 
are saying. They are saying Castro is broke and Mexican banks 
froze Cuban assets about a month ago in Europe trying to get 
paid.
    What I am really saying is at this time when the Europeans 
are taking a hard line, this is the time perhaps for Washington 
to follow in their steps.
    Mr. Burton. Thank you, Mr. Calzon.
    We will let Ms. Watson ask some questions and give you 
gentlemen all the time you want to respond.
    Ms. Watson. I think Mr. Olson, you probably are getting to 
some of the points I am concerned about. One of the things I 
learned, Mr. Calzon, in my two different training sessions at 
the Department of State is how to be a diplomat, how to deal 
with people throughout the world whose customs and traditions 
and governments are different than ours and how to meet them 
and talk with them, not accepting everything but finding common 
ground.
    So when I asked the question of the first panel, I was just 
trying to find out where you were, were your biases in the way 
of your vision. I am not going to hold a discussion as to what 
degree of badness is living in the heart of Fidel Castro. I 
look at deeds. I told you I was terribly disappointed when he 
took people and threw them into jail and executed three. I was 
horrified when we went to Rotterdam this summer and found a 
resolution against the United States for its 796 detainees down 
in Guantanamo Bay. I argued against them voting on it, give us 
some time to go down there to look at the prisoners we have 
taken, to look at their rights and then come back with our own 
evaluation and our own amendments. It didn't happen. Only 11 
countries out of 96 voted with us; the rest voted against us. 
What I was trying to do was find a way that we could correct 
the things we did wrong so that we could go about helping 
somebody else correct the things they do wrong.
    Mr. Olson, you were one of the few on the panel that 
pointed out some things that could be done. I am looking at a 
way that we could look at our neighbor 90 miles to our 
southeast as a productive and good neighbor. I hope we wouldn't 
get to the point where we have to go in there to destroy him to 
make a change and you don't have to respond. If the three of 
you could send me what you feel are your strongest, sincerest 
recommendations for dealing with the people of Cuba, that is 
who we are concerned about. We want them to have a quality of 
life probably not like ours but similar to ours. We want 
everybody to have the best quality they can where they live.
    So what I would like you to do is think with me, how can we 
help the Cuban people. If we set Castro over here, that would 
be one thing but with him there, I don't know how he has 
survived this long. When you think about it, 44 years, it is 
amazing. I really want to know what we can do as a country, as 
a State Department, as Amnesty International, as Free Cuba to 
really get to a point where we help the Cuban people. You can 
put it in writing and I will give my time back to the Chair. 
Just give it in writing to me.
    Thank you very much.
    Mr. Burton. It is almost 5 p.m. and I know you probably 
want to get down to one of the eating establishments where all 
the wealthy lobbyists hang out. I am kidding.
    Mr. Malinowski. We want to eat with Castro.
    Mr. Burton. She was telling me they ate at 2 a.m. but the 
food was outstanding.
    Let me ask, do you have any closing comments any of you 
because I saw you had some things you wanted to say, so we will 
let you make a closing comment.
    Mr. Malinowski. Let me just respond to maybe one thing Mr. 
Calzon said. I have to say I am a little bit surprised to hear 
you express such satisfaction with European policy toward Cuba. 
When I hear about canceling a book fair and an art show, it is 
better than what we have seen but it is kind of pathetic. I 
think we can do a lot better than that. I think we really need 
a much more concentrated, concerted effort focusing on our 
allies to try to come together on a more principled, more 
effective multilateral policy.
    Mr. Burton. Ms. Watson suggested you send to us in writing 
some suggestions. I would like to have your suggestions. I 
don't know whether we would see eye to eye but I would like to 
have them nevertheless.
    Mr. Olson, do you have any comments?
    Mr. Olson. I was just going to say I appreciate the 
challenge you have put before us. I think that is the right 
question to be asking and I am eager to respond to you in 
writing with some ideas that we have. I just wanted to 
underscore because Mr. Calzon always has a way of sticking me 
in the side and making me jump, I just want to emphasize that 
nobody is talking about being nice to Mr. Castro in any way 
whatsoever.
    Mr. Burton. In defense of Mr. Calzon, let me just say this. 
I have been intimately involved with the Cuban American 
Foundation and Cubans for a long, long time. I have gone down 
there and met with them and talked with them. I think even 
though I am very close to a lot of them as you probably know, 
unless you have lived the life, walked the talk, you can't 
really know what those people down there are going through. I 
think Mr. Calzon and a lot of the Cuban Americans have really 
seen firsthand what Fidel Castro does. I think that gives you a 
much different perspective, not that your perspectives aren't 
something we ought to take a look at but I think their 
perspective is something that is obviously going to be a bit 
deeper and more understandable.
    Yes, Mr. Calzon?
    Mr. Calzon. Again, thank you for having us here. One thing. 
The Europeans are doing a lot more than I mentioned here. The 
Europeans are providing and doing some of the things that were 
being done in Eastern Europe. They have to be done quietly. 
That is one of the things I do. I try to work with governments 
and NGO's from around the world. We care, we would like to help 
the people of Cuba.
    One final comment. For 11 years, I was a Washington 
representative of Freedom House and I went to the U.N. 
Commission on Human Rights where the Saudi Arabians used to 
tell me that I didn't understand that they had a different 
society, and the Chinese, the people in Equatorial Guinea. When 
I raised the issue of slavery in Sudan, well you don't 
understand, you cannot impose your views. We are talking about 
universal values, we are talking about human rights. For the 
United States to say to the Cuban dictator, Cubans should have 
the right to decide their own destiny, that is the same thing 
that we want to do in the rest of the hemisphere, the Soviet 
Union and everywhere else.
    I do not see and the people in Cuba do not see that as an 
imposition. Many people in Cuba were delighted to hear 
President Carter on national TV talking about the Varela 
Project. One of the things I think the Congress could do is 
lend the echo of your voices to the cries for help of the Cuban 
people.
    Mr. Burton. Very good. If you would send us in writing your 
proposed solutions to this and any suggestions, we would really 
appreciate it.
    Thank you very much and the hearing is adjourned.
    [Whereupon, at 5 p.m., the subcommittee was adjourned, to 
reconvene at the call of the Chair.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2565.075

[GRAPHIC] [TIFF OMITTED] T2565.076

[GRAPHIC] [TIFF OMITTED] T2565.077

[GRAPHIC] [TIFF OMITTED] T2565.078

[GRAPHIC] [TIFF OMITTED] T2565.079


</pre></body></html>
